No. 19-572
IN THE SUPREME COURT OF THE UNITED STATES
_________________
RAVNEET SINGH, PETITIONER
v.
UNITED STATES OF AMERICA
_________________
CERTIFICATE OF SERVICE
It is hereby certified that all parties required to be served have been served with copies of
the BRIEF FOR THE UNITED STATES IN OPPOSTION, via email and first-class mail,
postage prepaid, this 27th day of January, 2020.
[See Attached Service List]
As required by Supreme Court Rule 33.1(h), I certify that the document contains 4,032
words, excluding the parts of the document that are exempted by Supreme Court Rule 33.1(d). I
declare under penalty of perjury that the foregoing is true and correct. Executed on
January 27, 2020.

January 27, 2020

Noel J. Francisco
Solicitor General
Counsel of Record
Department of Justice
Washington, D.C. 20530-0001
(202) 514-2217

Due to the continuing delay in receiving incoming mail at the Department of Justice, in
addition to mailing your brief via first-class mail, we would appreciate a fax or email copy of
your brief. If that is acceptable to you, please fax your brief to Charlene Goodwin, Supervisory
Case Management Specialist, Office of the Solicitor General, at (202) 514-8844, or email at
SupremeCtBriefs@USDOJ.gov. Ms. Goodwin’s phone number is (202) 514-2217 or 2218.
Thank you for your consideration of this request.

19-0572
SINGH, RAVNEER
USA
TODD W. BURNS
BURNS & COHAN
1350 COLUMBIA STREET
SUITE 600
SAN DIEGO, CA 92101
619-236-0244
TODD@BURNSANDCOHAN.COM
HAROLD J. KRENT
IIT CHICAGO-KENT COLLEGE OF LAW
565 WEST ADAMS STREET
CHICAGO, IL 60661
312-906-5010
HKRENT@KENTLAW.IIT.EDU

VIA EMAIL

